No. :

IN THE
SUPREME COURT OF THE UNITED STATES

LEWIS R. FOX - PETITIONER/APPELLANT
Vs.
THE STATE OF OHIO - RESPONDENT/APPELLEE
PROOF OF SERVICE
I, Lewis R. Fox, do swear or declare that on this date,

L>~ ) ~ ~Zo2j

2021, as required by Supreme Court Rule 29, I have served the enclosed MOTION
FOR LEAVE! TO PROCEED IN FORMA PAUPERIS and PETITION FOR WRIT OF CERIORARI on
each party to the above proceeding or that party's counsel, by depositing an
envelope containing the above documents in the United States mail properly
addressed to each of them with first-class postage prepaid.
The names and addresses of those served are as follows:
Ohio Attorney General of Ohio (Dave Yost)
30 E'ast Broad Street, 14th Fl.
Columbus, Ohio 43215
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

,2021

\_P (Signature)

10

